NATIONAL SCIENCE FOUNDATION
    4201 WILSON BOULEVARD
  ARLINGTON, VIRGINIA 22230
	




                                 `Crabtree + Company

                              Falls Church Virgin a 22046
                                    200 Park` Avenue




               National Science Foundation Award Number LPA 97-141:53

                                  Financial Schedules




                             Independent Auditors Reports


                     For the period' Ma'   1997 to August   2000




                                                            McBRIDE, LOCK & ASSOCIATES

                                                                   :CERTIFIED PUBLIC ACCOUNTANTS
    SEP 9 20   02                                                                     KANSAS CITY...
                 Crabtree + Company
                   200 Park Avenue
             Falls Church, Virginia 22046


National Science Foundation Award Number LPA 97-14153

                  Financial Schedules

                         and

             Independent Auditors' Reports


     For the period May 1, 1997 to August 31, 2000
                             REPORT RELEASE RESTRICTION

This report may not be released to anyone outside the National Science Foundation without the
approval of the National Science Foundation - Office of Inspector General, except to an agency
involved in negotiating or administering the award. Furthermore, information contained in this
audit report should not be used for purposes other than intended without prior consultation with
the National Science Foundation - Office of Inspector General regarding its applicability.
	



    SUITE 406
    1221 BALTIMORE AVE.
    KANSAS CITY, MO 64105
    TELEPHONE: (816) 221-4559
    FACSIMILE: (816) 221-4563
    CERTIFIED PUBLIC ACCOUNTANTS



    MCBRIDE, LOCK & ASSOCIATES



                                    INDEPENDENT AUDITORS' REPORT


       National Science Foundation
       Office of Inspector General
       4201 Wilson Boulevard
       Arlington, Virginia 22230

       We have audited the costs claimed by Crabtree + Company to the National Science Foundation
       on the Public Voucher for Purchases and Services Other Than Personal (No. 63) for the National
       Science Foundation award listed below. This Public Voucher for Purchases and Services Other
       Than Personal, as presented in the Schedule of Award Costs (Schedule A) is the responsibility of
       the Awardee's management. Our responsibility is to express an opinion on this Schedule based
       on our audit.

                        Award Number         Award Period          Audit Period

                         LPA 97-14153      5/1/97 - 5/31/01      5/1/97 - 8/31/00

       We conducted our audit in accordance with generally accepted auditing standards, Government
       Auditing Standards (1994 Revision), issued by the Comptroller General of the United States, and
       the National Science Foundation Audit Guide (September 1996). Those standards require that we
       plan and perform the audit to obtain reasonable assurance about whether the financial schedules
       are free of material misstatement. An audit includes examining, on a test basis, evidence
       supporting the amounts and disclosures in the financial 'schedules. An audit also includes
       assessing the accounting principles used and significant estimates made by management, as well
       as evaluating the overall financial schedule presentation. We believe our audit provides a
       reasonable basis for our opinion.

       The accompanying financial schedule was prepared for the purpose of complying with the
       requirements of the National Science Foundation Audit Guide as described in Note 1, and is not
       intended to be a complete presentation of financial position in conformity with generally
       accepted accounting principles.

       In our opinion, the financial schedule referred to above presents fairly, in all material respects,
       the costs claimed on the Public Voucher for Purchases and Services Other Than Personal (No.
       63) as presented in the Schedule of Award Costs (Schedule A), for the period May 1, 1997 to
       August 31, 2000 in conformity with the National Science Foundation Audit Guide, NSF Grant
       Policy Manual, the award terms and conditions and on the basis of accounting described in Note
       1.
Schedule B contains costs in the amount of $1,018,781 that are being reported as unresolved.
The final determination on this amount will be made by the National Science Foundation and
therefore, the ultimate outcome of this determination cannot presently be determined.
Accordingly, no adjustment has been made to costs claimed for any potential disallowance by
NSF.

In accordance with Government Auditing Standards, we have also issued a report dated February
16, 2001 on our consideration of Crabtree + Company's internal control structure and a report
dated February 16, 2001 on its compliance with laws and regulations.

This report is intended solely for the information and use of the National Science Foundation.
Upon acceptance by the National Science Foundation, this report is a matter of public record,
subject to the redaction of material that either constitutes confidential business or personal
information covered by 18 U.S.C. Sec. 1905 or 5 U.S.C. Sec. 552a, or is covered by 5 U.S.C.
Sec. 552(b).




                                                         McBride, Lock & Associates

February 16, 2001




                                             2
REPORT SUMMARY AND HIGHLIGHTS
	




    National Science Foundation
    Office of Inspector General
    4201 Wilson Boulevard
    Arlington, Virginia 22230



                                   PURPOSE AND SCOPE OF AUDIT

    We have performed an audit of the costs claimed by Crabtree + Company to the National
    Science Foundation on the following NSF award:

                   Award Number          Award Period          Audit Period

                   LPA 97-14153.         5/1/97 _ 5/31/01      5/1/97 - 8/31/00

    The objectives of our audit were to determine whether:

                   1. Financial reports prepared by the auditee presented fairly the financial
                      condition of the award;

                   2. The internal control structure was adequate to safeguard Federal funds;

                   3. The Awardee had adequate procedures and controls to ensure
                      compliance with Federal laws, NSF regulations and award conditions;
                      and

                   4. The Award costs reported to NSF were documented and allowable in
                      accordance with the award terms and conditions.

    Our audit was made in accordance with generally accepted auditing standards, Government
    Auditing Standards (1994 Revision) issued by the Comptroller General of the United States, and
    the National Science Foundation Audit Guide (September 1996). Those standards and the
    National Science Foundation Audit Guide require that we plan and perform the audit to obtain
    reasonable assurance about whether the amounts claimed to the National Science Foundation as
    presented in the Schedule of Award Costs (Schedule A), are free of material misstatement. An
    audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
    Schedule A. An audit also includes assessing the accounting principles used and significant
    estimates made by the Awardee, as well as evaluating the overall financial schedule presentation.
    We believe our audit provides a reasonable basis for our opinion.




                                                   3
	




                                     SUMMARY OF AUDIT RESULTS

        An audit was performed on the costs claimed by Crabtree + Company to the National Science
        Foundation as shown in Schedule A, and summarized as follows:

                                                    Award          Claimed         Unresolved
              NSF Award Number                      Budget	         Costs	           Costs

              LPA 97-14153                       $7,199,364       $4,986,432       $1,018,781

    As a result of our audit of the aforementioned award, we are reporting $1,018,781 of claimed
    overhead costs as unresolved. Unresolved costs are costs that have been claimed, but can not be
    evaluated at the time of the audit because: 1) the criteria for their measurement has not been
    established; 2) the period for establishing the criteria is not complete; or 3) the criteria is unclear
    or ambiguous. Because we believe the award provision related to the overhead application base
    is ambiguous and conflicts with NSF's preaward review recommendations, we are deferring the
    matter to the NSF Contracts, Policy and Oversight Division for resolution.

    We have used non-statistical sampling to test the costs claimed by the Awardee to NSF. Based
    upon this sampling plan, questioned costs in this report may not represent total costs that may
    have been questioned had all expenditures been tested. In addition, we have made no attempt to
    project such costs to total expenditures claimed, based on the relationship of costs tested to total
    costs.

    The following is a brief description of the various findings which resulted from our audit. For a
    complete discussion of each finding, refer to the Independent Auditors' Report on Compliance or
    Independent Auditors' Report on Internal Control Structure.

                                        Material Compliance Finding

    •     The Awardee did not comply with the award provisions ,relating to overhead recoveries. The
          award stated that the overhead application base is "direct salaries and wages excluding
          vacation, holiday, sick pay, and direct freelancers but not including subcontract labor."
          However, the Awardee recovered overhead on fringe benefits and direct freelancer costs (see
          Independent Auditors' Report on Compliance).

                               Reportable Condition Internal Control Finding

    •     The Awardee does not have adequate internal controls to ensure that indirect costs are
          appropriately classified, indirect cost rates are appropriately determined, and that indirect
          cost recoveries are consistent with the award stated application base (see Independent
          Auditors' Report on Internal Control Structure).

                                             BACKGROUND

    Crabtree + Company is a for-profit corporation. The project under the direction of Crabtree +
    Company is described as follows:


                                                     4
	




    Award Number   Type of Award   Award Description

    LPA 97-14153   Contract         The core National Science & Technology Week
                                    (NSTW) program includes year-long activities of
                                    both educational and promotional content. Each of
                                    these components requires the conceptualization,
                                   .design, and production of materials, events, and
                                    activities to focus national attention and interest on
                                    the importance of science and technology in daily
                                    life. The program is a year-long campaign to
                                    achieve that objective, culminating each year in
                                    National Science & Technology Week, held
                                    traditionally in. late April and highlighting the
                                    themes and activities of each year's campaign.

                                   Crabtree + Company provides the required services
                                   of       science       and       education       writers,
                                   science/mathematics/technology                 Pre-K-12
                                   education specialists, graphics designers, original
                                   artists, illustrators, publicists, public relations and
                                   promotional specialists, and reviewers of education
                                   and other materials from the fields of science,
                                   engineering and technology; as well as printers and
                                   other necessary vendors to showcase both education
                                   and promotional materials through print and other
                                   media. Crabtree + Company distributes educational
                                   and promotional materials, ensuring accurate,
                                   effectively targeted, and timely deliveries. Crabtree
                                   + Company provides radio and TV production, and
                                   training of educators-formal and informal, such as
                                   volunteers and parents-in education and promotion
                                   activities of NSTW.            Crabtree + Company
                                   organizes and manages a national contest, which is
                                   mounted annually throughout the U.S. and beyond.
                                   Crabtree + Company provides management and
                                   support of the growth of NSTW's Regional
                                   Network, and program evaluation of impact and
                                   quality.

                                   Activities and events to be coordinated within
                                   annual NSTW themes include training of teachers
                                   as well as informal science/mathematics/technology
                                   educators of information education settings
                                   throughout the U.S.

                                   NSTW is currently facilitated by its Regional
                                   Network for Training and Materials Distribution,
                                      5
                                             hubs • of expanding program functions in
                                             located in 48 U.S.- sites; these sites are, considered;

                                             communities through grass roots activities.
                                             Crabtree + Company coordinates and expands upon
                                             Network activities in accordance with the approved
                                             Annual Program Plan.


                                     EXIT CONFERENCE

  An exit conference was held on - February 16, 2001 at the Awardee's office located at 200 Park
. Avenue, Falls Church, Virginia. Findings and recommendations contained in this report were
  discussed with those attending.




For McBride, Lock & Associates;
	



    SUITE 406
    1221 BALTIMORE AVE.
    KANSAS CITY, MO 64105
    TELEPHONE: (816) 221-4559
    FACSIMILE: (816) 221-4563
    CERTIFIED PUBLIC ACCOUNTANTS



    McBRIDE, LOCK & ASSOCIATES




                            INDEPENDENT AUDITORS' REPORT ON COMPLIANCE


       National Science Foundation
       Office of Inspector General
       4201 Wilson Boulevard
       Arlington, Virginia 22230

       We have audited the Schedule of Award Costs, as presented in Schedule A which summarizes
       the financial reports submitted by Crabtree + Company to the National Science: Foundation for
       the award listed below, and have issued our report thereon dated February 16, 2001.

                         Award Number       Award Period         Audit Period

                         LPA 97-14153       5/1/97 - 5/31/01     5/1/97 - 8/31/00

       We conducted our audit in accordance with generally accepted auditing standards, Government
       Auditing Standards (1994 Revision), issued by the Comptroller General of the United States, and
       the National Science Foundation Audit Guide (September 1996). Those standards and the
       National Science Foundation Audit Guide require that we plan and perform the audit to obtain
       reasonable assurance about whether the financial. schedule is free of material misstatement.

       Compliance with laws and regulations, the provisions of the National Science Foundation Audit
       Guide and the award terms and conditions is the responsibility of Crabtree + Company's
       management. As part of obtaining reasonable assurance about whether the financial schedule is
       free of material misstatement, we performed tests of Crabtree + Company's compliance with
       certain provisions of laws, regulations, the provisions of the National Science Foundation Audit
       Guide and the award. However, providing an opinion on overall compliance with such
       provisions was not an objective of our audit of the financial schedule. Accordingly, we do not
       express such an opinion.

       The results of our tests of compliance disclosed the following instance of material
       noncompliance that is required to be reported herein under Government Auditing Standards and
       the National Science Foundation Guide.




                                                      7
          The Awardee did not comply with the award provisions relating to overhead
          recoveries. The award document states that the overhead application base is "direct
          salaries and wages excluding vacation, holiday, sick pay, and direct freelancers but
          not including subcontract labor." However, the Awardee recovered overhead on
          fringe benefits and direct freelancer costs. The Awardee has indicated that the award
          stated application base is not consistent with its indirect rate negotiations with the
          NSF (see Awardee's response Appendix II). Because we believe the award provision
          related to the overhead application base is ambiguous and conflicts with NSF's
          preward review recommendations, we are reporting $1,018,781 of claimed overhead
          costs as unresolved and deferring the matter to the NSF, Division of Contracts, Policy
          and Oversight for determination of the application base which is applicable to this
          award.

Recommendation:

       We recommend in the future that the Awardee ensure that award stated provisions are
consistent with those agreed to during contract negotiation.

Awardee Response:

       The Awardee does not agree with this finding (see Awardee's response Appendix II).

Audit Conclusion:

       The audit position remains unchanged.

We considered this instance of material noncompliance in forming our opinion on whether
Schedule A is presented fairly in all material respects, in conformity with National Science
Foundation policies and procedures, and have determined that this report does not affect our
report dated February 16, 2001 on those financial schedules.

This report is intended solely for the information and use ,of the National Science Foundation.
Upon acceptance by the National Science Foundation, this report is a matter of public record,
subject to the redaction of material that either constitutes confidential business or personal
information covered by 18 U.S.C. Sec. 1905 or 5 U.S.C. Sec. 552a, or is covered by 5 U.S.C.
Sec. 552(b).




                                                          McBride, Lock & Associates

February 16, 2001




                                               8
	




    SUITE 406
    1221 BALTIMORE AVE.
    KANSAS CITY, MO 64105
    TELEPHONE: (816) 221-4559
    FACSIMILE: (816) 221-4563
    CERTIFIED PUBLIC ACCOUNTANTS



    McBRIDE, LOCK & ASSOCIATES




              INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL STRUCTURE


        National Science Foundation
        Office of Inspector General
        4201 Wilson Boulevard
        Arlington, Virginia 22230

        We have audited the Schedule of Award Costs, as presented in Schedule A which summarizes
        the financial report submitted by Crabtree + Company to the National Science Foundation for the
        award listed below, and have issued our report thereon dated February 16, 2001.

                         Award Number        Award Period          Audit Period

                          LPA 97-14153     5/1/97 - 5/31/01      5/1/97 - 8/31/00

        We conducted our audit in accordance with generally accepted auditing standards, Government
        Auditing Standards (1994 Revision), issued by the Comptroller General of the United States, and
        the National Science Foundation Audit Guide (September 1996). Those standards and the
        National Science Foundation Audit Guide require that we plan and perform the audit to obtain
        reasonable assurance about whether the financial schedule is free of material misstatement.

        The management of Crabtree + Company is responsible for establishing and maintaining an
        internal control structure.   In fulfilling this responsibility, estimates and judgments by
        management are required to assess the expected benefits and related costs of internal control
        structure policies and procedures. The objectives of an internal control structure are to provide
        management with reasonable, but not absolute, assurance that assets are safeguarded against loss
        from unauthorized use or disposition, and that transactions are executed in accordance with
        management's authorization and ' recorded properly to permit the preparation of financial
        statements in accordance with accounting principles prescribed by the National Science
        Foundation. Because of inherent limitations in any internal control structure, errors or
        irregularities may nevertheless occur and not be detected. Also, projection of any evaluation of
        the structure to future periods is subject to the risk that procedures may become inadequate
        because of changes in conditions or that the effectiveness of the design and operation of policies
        and procedures may deteriorate.




                                                        9
In planning and performing our audit of Schedule A for the period May 1, 1997 through August
31, 2000, we obtained an understanding of the internal control structure. With respect to the
internal control structure, we obtained an understanding of the design of relevant policies and
procedures and whether they have been placed in operation, and we assessed control risk in order
to determine our auditing procedures for the purpose of expressing our opinion on- the financial
schedules and not to provide an opinion on the internal control structure. Accordingly, we do not
express such an opinion.

Our consideration of the internal control structure would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect Crabtree + Company's ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial schedules.

Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements, in amounts that would be material in relation to the financial schedules being
audited, may occur and not be detected within a timely period by employees: in the normal course
of performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

We noted the following matter involving the internal control structure over financial reporting
and its operation that we consider to be a reportable condition. However, we do not believe this
reportable condition is a material weakness.

        • The Awardee did not have adequate internal controls to ensure that indirect costs are
          appropriately classified, indirect cost rates are appropriately determined and that
          indirect cost recoveries are consistent with award stated application bases.
          Specifically, (1) the Awardee's internal control structure did not provide a final
          verification for comparing Public Voucher direct costing to the general ledger chart of
          accounts depicting items of cost as either direct or indirect; and (2) the Awardee did
          not have a system to verify that methodology and application of overhead rates
          complied with contract provisions and indirect cost rate negotiations.            These
          verification procedures are essential to ensure that costs claimed as direct charges to
          the NSF Award are not recovered secondarily through the indirect cost rate and that
          indirect cost recoveries are not in excess of those allowed based on the award
          provisions (see Schedule B detailing reported $1,018,781 unresolved overhead costs).
          Further, the Federal Acquisition Regulations (FARs) Sections 31.202 and 31.203
          requires the awardees to maintain an adequate system of internal control and an
          accounting system which clearly distinguishes and controls the recovery of costs as
           either direct or indirect, but not as both or in an excessive manner.

Recommendation:

       We recommend the Awardee implement procedures to ensure that the submission of
Public Vouchers include final verifications to the general ledger and rate negotiation agreements.
This determination should verify that costs are properly classified as either direct or correctly

                                                10
used in the computation of indirect cost recovery and that indirect cost recoveries are consistent
with award provisions.

Awardee Response:

       The Awardee does not agree with this finding (see Awardee's response Appendix II).

Audit Conclusion:

       The audit position remains unchanged.

This report is intended solely for the information and use of the National Science Foundation.
Upon acceptance by the National Science Foundation, this report is a matter of public record,
subject to the redaction of material that either constitutes confidential business or personal
information covered by 18 U.S.C. Sec. 1905 or 5 U.S.C. Sect. 552a, or is covered by 5 U.S.C.
Sec. 552(b).



                                                            McBride, Lock & Associates
February. 16, 2001




                                                11
                       FOLLOW-UP OF PRIOR AUDIT FINDINGS



There was no prior audit of NSF awards to Crabtree + Company.




                                             12
FINANCIAL SCHEDULES
This page has been redacted
	




                                                                                      SCHEDULE B


                                           Crabtree + Company
                        National Science Foundation Award Number LPA 97-14153
                                       Schedule of Unresolved Costs
                                   From May 1, 1997 to August 31, 2000


    I.     $1,018,781 Overhead Claimed Unresolved

    Per Section B.4.a. (Rate Application Bases) of the award document the overhead application
    base applicable to the award is "direct salaries and. wages excluding vacation, holiday, sick pay,
    and direct freelancers but not including subcontract labor." However, the Awardee claimed
    overhead on salaries, wages, fringe benefits and direct freelancers. The Awardee has stated that
    the application base stated in the award document is a "typographical error" and that it allocated
    overhead and fringe benefits precisely as was negotiated and directed by NSF audit personnel
    (see Awardee response Appendix II). The NSF Cost Analysis and Audit Resolution Branch
    provided a draft "For-Profit Rate Agreement" to the Awardee which states that the Awardee's
    overhead application base is total salaries and wages plus fringe benefits (purchased labor
    salaries are not included) (see Appendix I)..

    We believe that it is the responsibility of the Awardee to ensure award documents reflect
    provisions which are consistent with the related negotiations. However, because the award
    provision related to the overhead application base is ambiguous and conflicts with NSF's
    preaward review recommendation, we have reported $1,018,781 overhead claimed by the
    Awardee as unresolved and defer the matter to the NSF, Contracts, Policy and Oversight
    Division for resolution.

    Recommendation: We recommend the Awardee negotiate indirect cost rates with NSF for the
    period of award and if amounts claimed for overhead are greater than allowed based on these
    negotiated rates, refund excess recoveries to NSF. Further, we recommend the Awardee establish
    procedures to ensure that award provisions are consistent with related award negotiations in the
    future.

    Awardee's Comment:

           The Awardee does not agree with this finding (see Awardee response Appendix II).

    Audit Conclusion:

           The audit position remains unchanged.




                                                   14
	




                                         Crabtree + Company
                                    Notes to the Financial Schedules
                                  From May 1, 1997 - August 31, 2000


      1.    Summary of Significant Accounting Policies:

    . Accounting Basis

     The accompanying financial schedules have been prepared in conformity with National Science
     Foundation (NSF) instructions. Schedules A and B have been prepared from the reports
     submitted to NSF. The basis of accounting utilized in preparation of these reports differs from
     generally accepted accounting principles. The following information summarizes these
     differences:

     A.     Equity

            Under the terms of the award, all funds not expended according to the award agreement
            and budget at the end of the award period are to be returned to the National Science
            Foundation. Therefore, the awardee does not maintain any equity in the award and any
            excess of cash received from NSF over final expenditures is due back to the National
            Science Foundation.

     B.     Equipment

            Equipment purchases were not provided for in the NSF award.

     C.     Inventory

            Minor materials and supplies are charged to expense during the period of purchase. As a
            result, no inventory is recognized for these items in the financial schedules.

     2.     Income Taxes

            Crabtree + Company is a for-profit corporation, incorporated under the laws of the State
            of Virginia subject to income taxes under provisions of the Internal Revenue Code and
            statutes of the State of Virginia.




                                                                                                       l
                                                   15
                                                                                                       11
	



                                                                                                              APPENDIX I




     FPrfVA                                  Crabtree & Company              3/31/97

                                            FOR-PROFIT RATE AGREEMENT




    E IN #	                                                         NSF INS CODE: ?

    ORGANIZATION:                                                  DATE:                March 31, 1997

    Crabtree & Company                                             FILING REF: This is the first formal agreement
    1137 North Highland Street
    Arlington, VA 22201




    The rates approved in this agreement are for use on grants, contracts and other agre ments with the
    Federal Government, subject to the conditions in Section II.




    SECTION I: INDIRECT COST RATES


    Type                                    Effective Period                Rate                Base

    Provisional or Billing Rate             9/30/96 - 12/31/97              160%                 (a)
    Overhead Ceiling Rate                   9/30/96 - 12/31/97              176%                 (a)

    Provisional Fringe Benefits             9/30/96 - 12/31/97              25%                 (b)
    Fringe Benefit Ceiling                  9/30/96 - 12/31/97              28%-                (b)


    Rate Application Base

    (a) Total salaries and wages plus fringe benefits (purchased labor salaries are included).
    (b) Total salaries and wages of employees

    Ceiling rates are not subject to upward adjustment However, provisional or billing rates are subject to
    downward adjustment when final rates are lower than the awarded provisional rates.

    Note: Fringe benefits associated with direct salaries and wages are treated as direct costs and included in
    the indirect cost rate application base.
	


                                                                                                                  APPENDIX I
                                                                                                                  (Continued)




    ORGANIZATION:                                                                            Page 2
    Crabbier & Company


    SECTION II: GENERAL TERMS

    A LIMITATIONS: Use of the rate contained in this agreement are subject to any applicable contractual
       or grant l imitations. Acceptance of these rates agreed to herein is predicated upon the conditions: (1)
       that no costs other than those incurred by. the contractor or grantee were included in its indirect cost
       proposal and that such costs are legal obligations of the contractor or grantee, (2) that the same costs
       that have been treated as indirect costs have not been claimed as direct costs, and (3) that similar
       types of costs have been accorded consistent treatment

    B. ACCOUNTING CHANGES: The rates contained in this agreement are based on the accounting
       system in effect at the time the proposal was prepared and the rates were negotiated. Changes to the
       method of accounting which effect the amount of reimbursement resulting from the use of these rates
       require the prior approval of this office. Failure to obtain such approval may result in subsequent
       cost disallowances .

    C. NOTIFICATION TO FEDERAL AGENCIES: Copies of this document may be provided to other
       Federal offices as a means. of notifying them of the rates agreed to herein.



    BY THE ORGANIZATION:                                      ON BEHALF OF 1B FEDERAL GOVERNMENT:

	   Crabbier & Company	                                       National Science Foundation
    (Organization)                                            (Agency)


    (Signature)                                               (Signature)

	                                                             Joan Kelly	
    (Name)                                                    (Name)

	                                                             Deputy Branch Chief, CAAR/CPO/BFA
    (Title)                                                   (Title)


    (Date)                                                    (Date)

                                                              NSF Negotiator Charles Zeigler
                                                              Telephone: (703)306-1244
AWARDEE RESPONSE
  (APPENDIX II)
	




    I   Q A B T R E E   + co   September 3, 2002



                               McBride, Lock & Associates
                               1221 Baltimore Avenue, Suite 406
                               Kansas City, MO 65105

                               Dear

                               Reference is made to your revised Draft Independent Auditors' Reports for the period
                               May 1, 1997 to August 31, 2000.

                               Crabtree + Company, Inc. understands the language in the awarded contract and
                               contends that this language contained a typographical error. Officials of this company
                               directed the auditor's attention to the obvious typographical error at the exit
                               conference, provided a copy of the unsigned agreement negotiated with the National
                               Science Foundation, and this error is noted in the referenced reports.

                               It is understood that the auditor must rely on the signed contractual agreement.
                               Errors or not, this is precisely what the auditor has based the entire audit's
                               "questioned costs" and comments. Nevertheless, the independent auditor will
                               confirm that there were no direct costs billed to NSF that were not allowable and
                               allocable to the contract and that there were no "questioned " costs that could not be
                               tracked and verified by the auditor.

                               In all three reports, the auditor relies solely on the contract paragraph containing the
                               typographical error that should have been caught prior to contract signing. Because
                               we knew what had been negotiated, we misread the error. At that time, we were
                               anxious to start work on the contract and were focusing our energy on the actual
                               scope of work, setting schedules, and organizing systems to manage the contract
                               efficiently. Although the contract was signed effective May 1, 1997, the actual .
                               contract start date had been delayed by NSF, thereby, necessitating us to accelerate
                               actions to assure that the initial deadlines were met.

                               Prior to the award, however, the National Science Foundation (NSF) performed a
                               pre-award audit. The NSF auditor visited our facilities, reviewed our accounting
                               system, tested our reported information against backup documents, and established
                               the provisional overhead and fringe benefit rates that we used throughout
                               performance of the contract. This auditor also provided us with a comprehensive
                               format for the display of expenditures that was preferred by NSF to review and audit
                               the costs involved. In order for our company to receive the award, NSF made a




                                                                             200 PARK AVENUE, FALLS CHURCH, VIRGINIA 22046

                                                                             PHONE 703.241.9001   FAX 703.241.9060

                                                                             E-MAIL I NFO@CRABTREECOMPANY.COM
determination that, among other attributes, our company had the necessary
organization, accounting, and operational controls to perform the required services.

Originally, this audit was scheduled to begin in the fall of 2000 and we believed that
the independent auditor would ascertain the final overhead rate. Except for that fall,
at the end of each C+C fiscal year, we submitted the chart of C+C expenditures to the
NSF Contracting Officer - using the format provided by NSF - for use in
establishing the final overhead rate for the previous year. In addition, each Public
Voucher submitted for payment was, also, provided to the Contracting Officer
Technical Representative who worked hand-in-hand with the Contracting Officer
when it involved costs. Although reminded from time to time, at no time did anyone
at NSF object to the rates we were billing or did anyone make any attempt to finalize
the rates.

To conclude, in accordance with the contract, Crabtree + Company, Inc. could have
billed overhead rates anywhere between the range of 160% and 176% and fringe
benefits between the range of 25% and 28%. Our company billed at the lowest rates
during the entire contract.

Sincerely,




cc: NSF Contracting Officer
